     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684
August 10, 2011

Report Number: A-01-10-00515

Ms. Melissa Halstead Rhoades
Area Director and Medicare CFO
Financial Management Operations Division
TrailBlazer Health Enterprise, LLC
8330 LBJ Freeway, 11.2402
Dallas, TX 75234

Dear Ms. Rhoades:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Claims Processed by Trailblazer
Health Enterprises, LLC That Included Procedures for the Insertion of Multiple Units of the
Same Type of Medical Device for Calendar Years 2008 and 2009. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-10-00515 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                             for Audit Services

Enclosure
Page 2 – Ms. Melissa Halstead Rhoades


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF OUTPATIENT CLAIMS
PROCESSED BY TRAILBLAZER HEALTH
ENTERPRISES, LLC THAT INCLUDED
PROCEDURES FOR THE INSERTION OF
MULTIPLE UNITS OF THE SAME TYPE
 OF MEDICAL DEVICE IN CALENDAR
      YEARS 2008 AND 2009



                        Daniel R. Levinson
                         Inspector General

                           August 2011
                          A-01-10-00515
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                               EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program. CMS contracts with Medicare contractors, including TrailBlazer Health
Enterprises (TrailBlazer), to process and pay hospital outpatient claims using the Fiscal
Intermediary Shared System (FISS).

CMS implemented an outpatient prospective payment system (OPPS) for hospital
outpatient services. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the ambulatory payment classification
group to which the service is assigned. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and prosthetics. Generally, a provider implants only
one cardiac device during an outpatient surgical procedure. Under OPPS, payments to
hospitals for medical devices are “packaged” into the payment for the procedure to insert
the device. Hospitals are required to report the number of device units and related
charges accurately on their claims. The failure to report device units and related charges
accurately could result in incorrect outlier payments.

Our audit covered $551,979 in Medicare outlier payments to hospitals for 101 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 101 claims had dates of service during calendar years (CY) 2008
and 2009.

OBJECTIVE

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by TrailBlazer that included procedures for the insertion of multiple
units of the same type of medical device.

SUMMARY OF FINDINGS

Of the 101 claims that we reviewed, Medicare paid 73 correctly for outpatient claims
processed by TrailBlazer that included procedures for the insertion of multiple units of
the same type of medical device. However, for the remaining 28 claims, Medicare did
not pay hospitals correctly. These incorrect payments were due to hospitals overstating
the number of units and related charges, resulting in excessive or unwarranted outlier
payments for 25 claims; hospitals also understated the number of units and related
charges, resulting in reduced outlier payments for 3 claims.



                                             i
For the 28 claims, TrailBlazer made net overpayments to hospitals totaling $81,971.
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   recover the $81,971 in net overpayments for 28 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

TRAILBLAZER HEALTH ENTERPRISES COMMENTS

In written comments on our draft report, Trailblazer concurred with our findings and
recommendations and outlined steps for implementing our recommendations.

Trailblazer’s comments are included in their entirety as the Appendix.




                                            ii
                                             TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             Hospital Outpatient Prospective Payment System ............................................1
             Medical Devices................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope ................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................3

          PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY .............................4

          CAUSES OF INCORRECT PAYMENTS ................................................................4
               Inadequate Controls at Hospitals ...................................................................4
               Inadequate Medicare Payment Controls ........................................................4

          RECOMMENDATIONS ...........................................................................................5

          TRAILBLAZER HEALTH ENTERPRISES COMMENTS.....................................5

APPENDIX

          TRAILBLAZER HEALTH ENTERPRISES COMMENTS




                                                               iii
                                    INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act),
provides health insurance coverage to people aged 65 and over, people with disabilities,
and people with end-stage renal disease. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. Part B of Title XVIII provides supplementary
medical insurance for medical and other health services, including the coverage of
hospital outpatient services.

CMS contracted with TrailBlazer Health Enterprises (TrailBlazer) to, among other things,
process and pay claims submitted by hospital outpatient departments. TrailBlazer uses
the Fiscal Intermediary Shared System (FISS) for processing hospital claims.
TrailBlazer processes claims for Virginia, Colorado, New Mexico, Oklahoma, and Texas.

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the
Medicare, Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced
Budget Refinement Act of 1999, P.L. No. 106-113, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS was
effective for services furnished on or after August 1, 2000. Under the OPPS, Medicare
pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). All services and items within an
APC group are comparable clinically and require comparable resources. Under the
OPPS, outlier payments are available when exceptionally costly services exceed
established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and prosthetics. Generally, a provider implants only
one cardiac device, such as a pacemaker or implantable cardioverter defibrillator (ICD),
during an outpatient surgical procedure.

Under OPPS, payments to hospitals for medical devices are “packaged” into the payment
for the procedure to insert the device. Although separate payment is not made for the
device, hospitals are still required to report device charges on their claims. Hospitals are
required to report the number of device units and related charges accurately on their
claims. The failure to report device units and related charges accurately could result in
incorrect outlier payments.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by TrailBlazer that included procedures for the insertion of multiple
units of the same type of medical device.

Scope

Our audit covered $551,979 in Medicare outlier payments to hospitals for 101 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 101 claims had dates of service during calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal
control structures of hospitals or of TrailBlazer. Therefore, we limited our review at
hospitals to the controls related to preparing and submitting Medicare claims for
procedures that included the insertion of selected medical devices. We limited our review
at TrailBlazer to the controls related to preventing or detecting Medicare overpayments to
hospitals for outpatient claims with overstated medical device units.

Our fieldwork included contacting TrailBlazer and the 50 hospitals that submitted the 101
claims in our review. We conducted our fieldwork from September 2010 through
February 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the hospitals’ outpatient paid claim data from CMS’s National Claims
        History file for CYs 2008 and 2009;

   •    developed computer applications to identify outpatient claims processed by
        TrailBlazer that included procedures for the insertion of multiple units of the same
        type of medical device and identified 101 claims to review;

   •    reviewed the hospitals’ itemized bills for 101 claims and selected beneficiaries’
        medical records to determine whether the hospitals submitted claims with the
        correct device units and associated charges;

   •    reviewed CMS’s Common Working File claims history for the 101 claims to
        validate the results of our computer match and to verify that the selected claims
        had not been canceled;

                                             2
   •   contacted representatives of the 50 hospitals that submitted the claims to verify
       whether the claims were billed correctly and to determine the causes of
       noncompliance with Medicare billing requirements;

   •   contacted TrailBlazer to obtain an understanding of edits in the FISS and other
       controls intended to prevent or detect overpayments to hospitals;

   •   calculated the correct payments for claims that needed payment adjustments; and

   •   discussed the results of our review with TrailBlazer.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the 101 claims that we reviewed, Medicare paid 73 correctly for outpatient claims
processed by TrailBlazer that included procedures for the insertion of multiple units of
the same type of medical device. However, for the remaining 28 claims, Medicare did
not pay hospitals correctly. These incorrect payments were due to hospitals overstating
the number of units and related charges, resulting in excessive or unwarranted outlier
payments for 25 claims; hospitals also understated the number of units and related
charges, resulting in reduced outlier payments for 3 claims.

For the 28 claims, TrailBlazer made net overpayments to hospitals totaling $81,971.
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

PROGRAM REQUIREMENTS

Section 1862(a)(1)(A) of the Act states no payment may be made under Part A or Part B
for any expenses incurred for items or services that are not reasonable and necessary for
the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

Federal regulations (42 CFR Section 419.43(d)) provides for outlier payments for
hospital outpatient services, in addition to the prospective payment, when a hospital’s
charges exceed certain thresholds.

                                             3
PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY

Hospitals incorrectly billed medical device units for 28 of the 101 claims with net
overpayments totaling $81,971. These billing errors led to overstated charges, resulting
in excessive or unwarranted outlier payments for 25 claims, and understated charges,
resulting in underpayments for 3 claims.

The following examples illustrate incorrectly billed units:

   •   One hospital billed for two automatic implantable cardioverter defibrillator
       (AICD) units with charges that totaled $100,020. However, the hospital should
       have billed for one AICD unit with charges of $50,010. The additional charges
       for the second AICD unit resulted in an unwarranted outlier payment of $6,199 to
       the hospital.

   •   One hospital billed for two units of neurostimulator leads with charges that totaled
       $8,160, but it should have billed for three units with charges of $12,240. The
       omission of the charge for the additional unit resulted in the hospital receiving an
       outlier payment that was $867 less than it was entitled.

CAUSES OF INCORRECT PAYMENTS

Inadequate Controls at Hospitals

The 18 hospitals that received incorrect payments had not established the necessary
controls to ensure that they billed the correct device units for outpatient claims processed
by TrailBlazer that included procedures for the insertion of medical devices. Officials of
these hospitals stated that their billing personnel had billed units incorrectly for one or
more of the following reasons:

   •   personnel made isolated data entry errors,

   •   multiple personnel mistakenly entered the same device charges on the same claim,
       and

   •   undetected flaws in the design or implementation of some billing systems caused
       some claims to be submitted with multiple medical device units.

Inadequate Medicare Payment Controls

Medicare payment controls were not always adequate to prevent or detect incorrect
payments. Specifically, CMS established, as part of its FISS prepayment controls, unit
amount thresholds for medically unlikely edits that are too high for certain medical
devices (i.e., currently, there is a two-unit threshold for pacemakers).



                                             4
RECOMMENDATIONS

We recommend that TrailBlazer:

   •   recover the $81,971 in net overpayments for 28 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

TRAILBLAZER HEALTH ENTERPRISES COMMENTS

In written comments on our draft report, Trailblazer concurred with our findings and
recommendations and outlined steps for implementing our recommendations.

Trailblazer’s comments are included in their entirety as the Appendix.




                                            5
APPENDIX
                                                                                                         MEDICARE 


CENTERS for MEDICARE & MEDICAID SERVICES




    July 13,2011



     Michael J. Armstrong 

     Regional Inspector General for Audit Services 

     Office of Inspector General 

     Office of Audit Services, Region I 

     John F. Kennedy Federal Building, Room 2425 

     Boston, MA 02203 



     Report Number: A-01-10-00515


     Dear Mr. Armstrong:

     We received the June 13,2011, draft report entitled "Review of Outpatient Claims Processed by
   . TrailBlazer Health Enterprises, LLC That Included Procedures for the Insertion of Multiple
     Units of the Same Type of Medical Device for Calendar Years 2008 and 2009." In the draft
     report, the OIG recommended that TrailBlazer:
         • 	 Recover the $81 ,971 in net overpayments for 28 inaccurate claims;
         • 	 Continue to alert hospitals of the importance of coding outpatient claims with the correct
              number of medical device units; and
         • 	 Work with CMS to strengthen FISS prepayment edits by revising the unit amount
              thresholds for certain medical devices.

     Please consider the following responses to these recommendations for inclusion in the final
     report:

         Recovery of Net Overpayments: As a result of this audit, TrailBlazer recovered a net
         overpayment of $69,164 on 23 inaccurate claims prior to the issuance of the draft audit
         report. We found that the impacted providers submitted adjustment bills related to the OIG
         audit findings for the 23 claims. The remaining five claims were not adjusted by the
         impacted providers. TrailBlazer has taken action to adjust these claims based on the OIG
         audit determined adjustment. The adjustments are currently processing in the standard
         system, but have not finalized. We anticipate recovering the remaining net overpayment of
         $12,807, when these claims have finalized .




                                  TrailBlazer Health Enterprises, LLC
                                    Executive Center III. 8330 LBJ Freeway. Dallas, TX 75243-1213

                                           A Medicare Administrative Contractor                     ISO
                                                                                                    CERTIFIED
Michael J. Armstrong
July 13,2011
Page 2 of2

    Provider Education Activities: TrailBlazer provides a Part A Beginner's Guide to 

    Medicare to assist providers with basic Part A information to help ensure Part A claims are 

    submitted properly. 

    http://www.trailblazerhealth.com/Publications/Training%2 0 ManualiMedicareBasicsManual. 

    2M
    TrailBlazer also offers the TrailBlazer Outpatient Prospective Payment System (OPPS)
    manual, which includes policies, billing information, billing examples, requirements, revenue
    codes, form locators, initiatives and significant changes to the Medicare program.
    http://www.trailblazerhealth.com/PublicationslTraining%20ManualiHosptialOutpatientManu
    al.pdf

    Part A Beginner's Guide to Medicare and OPPS training are routinely offered through Web­
    based training events. The PowerPoint presentations are available for download and, upon
    completion of these events, the recorded training sessions are posted on the TrailBlazer Web
    site for reference.
    http://www.trailblazerhealth.com/EducationiEncoreWB Ts.aspx?DomainID= 1

    TrailBlazer will develop an article highlighting these OIG findings. This article will be
    placed on the TrailBlazer Web site, sent in listserv and added to the TrailBlazer eBulletin for
    further exposure. In addition, these findings will be addressed in future online training
    sessions when appropriate.

    FISS Prepayment Edits: TrailBlazer Part A Claims staff will work with the Medical
    Review unit and CMS to identify issues with the incorrect medical device units billed by
    providers and to implement pre-payment edits to prevent payment when provider billing
    errors occur.

If you have any questions regarding our response, please contact me.

Sincerely,

lsi Melissa Halstead Rhoades

Melissa Halstead Rhoades
Area Director & Medicare CFO

cc: 	    Terry Bird, Contracting Officer Technical Rep. Southern MAC Program Mgmt. Division
         Gil R Glover, President & Chief Operating Officer,
         Scott 1. Manning, Vice President, Financial Mgt. Operations & J4 MAC Project Manager
         Kevin Bidwell, Vice President & Compliance Officer
